CERTIFICATE OF SERVICE
I, J. Bart DeLone, Chief Deputy Attorney General, do hereby certify that I have
this day served the foregoing opposition, described below as follows:
No. 20-574
IN THE SUPREME COURT OF THE UNITED STATES,
Joseph B. Scarnati, III, et al., Petitioners v. Pennsylvania Democratic
Party, et al., Respondents
BRIEF IN OPPOSITION TO PETITION FOR CERTIORARI
Per the Court’s April 15, 2020 Order, by electronic filing and First-Class Mail, postage
prepaid to:
1 COPY TO:

Scott S. Harris, Clerk
UNITED STATES SUPREME COURT
1 First Street, N.E.
Washington, DC 20543-0001

Per the Court’s April 15, 2020 Order, by electronic service to:
John M. Gore, Esquire
JONES DAY
51 Louisiana Avenue, NW
Washington, DC 20001
Counsel for Republican Party of
Pennsylvania
Jason Brett Torchinsky
HOLTZMAN VOGEL JOSEFIAK
TORCHINSKY PLLC
15405 John Marshall Hwy
Haymarket, VA 20169
Counsel for Joseph B. Scarnati, III, et
al.
Joseph M. Cosgrove, Esquire
SELINGO GUAGLIARDO LLC
345 Market Street
Kingston, PA 18704-0000
Counsel for Luzerne County Board of
Elections

Gerard J. Geiger, Esquire
NEWMAN, WILLIAMS, ET AL.
712 Monroe St.
P.O. Box 511
Stroudsburg, PA 18360
Counsel for Carbon, Monroe, Pike,
Wayne, and Schuylkill County Boards
of Elections
Molly E. Meacham, Esquire
BABST CALLAND CLEMENTS AND
ZOMNIR, PC
Two Gateway Center,
603 Stanwix Street
Pittsburgh, PA 15222
Counsel for Armstrong, Bedford, Blair,
Centre, Columbia, Dauphin, Fayette,
Huntingdon, Indiana, Lackawanna,
Lawrence, Lebanon, Montour,
Northumberland, Venango and York
County Boards of Elections

Donald B. Verrilli Jr., Esquire
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001-5369
Counsel for Pennsylvania Democratic
Party, et al.

Thomas R Shaffer, Esquire
GLASSMIRE AND SHAFFER LAW OFFICES,
P.C.
5 East Third Street
Coudersport, PA 16915
Counsel for Potter County Board of
Elections

Stephanie L. Fera, Esquire
CAFARDI FERGUSON WYRICK WEIS &
GABRIEL, LLC
2605 Nicholson Road, Suite 2201
Sewickley, PA 15143
Counsel for Clarion and Tioga County
Boards of Elections
s/ J. Bart DeLone
J. Bart DeLone
Chief Deputy Attorney General
OFFICE OF ATTORNEY GENERAL
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 712-3818
jdelone@attorneygeneral.gov
Dated: November 30, 2020

